<html>
<title> - [H.A.S.C. No. 111-9] U.S. TRANSPORTATION COMMAND'S (USTRANSCOM) AIRLIFT, SEALIFT, AND SURFACE LIFT PROGRAMS </title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                          [H.A.S.C. No. 111-9] 

                     U.S. TRANSPORTATION COMMAND'S 

                   (USTRANSCOM) AIRLIFT, SEALIFT, AND 

                         SURFACE LIFT PROGRAMS 

                               __________

                             JOINT HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                          MEETING JOINTLY WITH

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 25, 2009

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-943 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

  



























             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
ERIC J.J. MASSA, New York
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant
                                 ------                                

                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
ERIC J.J. MASSA, New York            MICHAEL TURNER, Ohio
BOBBY BRIGHT, Alabama
                John Sullivan, Professional Staff Member
                 Heath Bope, Professional Staff Member
                 John Wason, Professional Staff Member
                    Benjamin Glerum, Staff Assistant




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, February 25, 2009, U.S. Transportation Command's 
  (USTRANSCOM) Airlift, Sealift, and Surface Lift Programs.......     1

Appendix:

Wednesday, February 25, 2009.....................................    31
                              ----------                              

                      WEDNESDAY, FEBRUARY 25, 2009
   U.S. TRANSPORTATION COMMAND'S (USTRANSCOM) AIRLIFT, SEALIFT, AND 
                         SURFACE LIFT PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     2
Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........    19
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     2
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

McNabb, Gen. Duncan J., USAF, Commander, U.S. Transportation 
  Command........................................................     3

                                APPENDIX

Prepared Statements:

    McNabb, Gen. Duncan J........................................    37
    Taylor, Hon. Gene............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

   U.S. TRANSPORTATION COMMAND'S (USTRANSCOM) AIRLIFT, SEALIFT, AND 
                         SURFACE LIFT PROGRAMS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Seapower and Expeditionary Forces 
            Subcommittee, Meeting Jointly with Air and Land 
            Forces Subcommittee, Washington, DC, Wednesday, 
            February 25, 2009.
    The subcommittees met, pursuant to call, at 10:07 a.m., in 
room 2118, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the Seapower and Expeditionary Forces 
subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The subcommittee will come to order. Today, the 
Seapower and Expeditionary Forces and the Air and Land Forces 
Subcommittees will meet to receive testimony from the commander 
of the United States Transportation Command (USTC), General 
Duncan McNabb of the United States Air Force.
    General McNabb is uniquely suited to this challenging 
assignment. He is a graduate of the United States Air Force 
Academy class of 1974. He has significant experience as a 
command pilot in both transportation and rotary wing aircraft.
    General McNabb has commanded at every level, including 
commander of the 41st Airlift Squadron during Operation Desert 
Storm, the 89th Operations Group, which has responsibility for 
transporting the President on Air Force One.
    Prior to his current duties as commander of the United 
States Transportation Command, General McNabb served as the 
Commander of the Air Force Joint Military Command as Vice Chief 
of Staff of the Air Force.
    Thank you, General, for being with us today to discuss the 
challenges you face in supplying our troops around the world 
with the equipment and the supplies they need.
    The United States Transportation Command is the largest 
shipper of goods and material in the world. On an average day, 
Transportation Command (TRANSCOM) is moving 100 railcar 
shipments, has 44 ships loading, offloading or underway, has 
1,000 trucks moving with cargo, and executes 480 airlift 
missions.
    There is a staggering amount of transportation occurring on 
each and every day.
    To accomplish this mission, TRANSCOM relies on the Army 
Surface Deployment and Distribution Command, the Navy's 
Military Sealift Command, and the Air Force Air Mobility 
Command, along with commercial partners in rail, trucking and 
sea transportation.
    In addition to other issues that the general would care to 
discuss with us today, he has been requested to update the 
joint subcommittee on TRANSCOM's current and future force 
structure needs, the current capability to accomplish all the 
assigned missions, and, particularly, the issue of sustainment 
of our forces in Afghanistan.
    As I am sure you are all aware, recently, the overland 
supply routes to Afghanistan by way of Pakistan have been 
targeted by insurgents. Lacking a different delivery route, the 
Pakistani overland supply routes are critical to resupplying 
our troops.
    I look forward to the general discussion the issues 
associated with the Pakistani routes and with alternative 
routes from the north that I know he and others have been 
working on.
    Again, General, thank you for being with us today.
    I now call on my good friend from Hawaii, the Chairman of 
the Air and Land Forces Subcommittee, Mr. Abercrombie.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 35.]

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
       HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Thank you, Mr. Chairman. No comments at 
this time.
    Mr. Taylor. Mr. Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    General McNabb, thank you for joining us today. It is a 
true privilege to have you before the committee today and I 
look forward to our discussion.
    We are all very aware that this Nation is in the midst of 
some difficult economic times. There is no doubt that tough 
decisions must be made if we are to continue to provide and 
maintain a military force that adequately supports our National 
Military Strategy.
    In making those decisions, it is critical that this body 
understand the equipping needs of our military in the context 
of joint requirements and integrated capabilities.
    In my 17 years of service on this committee, I have always 
found it very difficult to determine the Nation's procurement 
priorities when we are given a budget that reflects the 
individual services' procurement priorities.
    We are told that the new tanker is the Air Force's number 
one priority and that Future Combat Systems is the Army's 
number one priority. But no one seems to be able to tell us how 
those priorities stack up against each other.
    As an example, no one can tell us if the Air Force's need 
for a new combat search-and-rescue-X helicopter outweighs the 
Army's need for a new Armed Reconnaissance Helicopter and they 
certainly can't tell us whether either of those helicopter 
programs stack up--how they stack up compared to the Navy's 
need for the Littoral Combat Ship.
    I am particularly pleased to have you with us today, 
General McNabb, because I believe you can shed some light on 
several recapitalization and modernization programs and help us 
understand their value, from their standpoint.
    Although we do not expect you to be able to address the 
fiscal year 2010 budget request, I do believe that you should 
address your requirements and priorities as a combatant 
commander.
    As the commander of U.S. Transportation Command, you 
provide critical transportation services, air refueling support 
and terminal management, so that our frontline forces can 
successfully execute their mission.
    However, you cannot do your job unless your service 
components, the Army, Navy, and Air Force, are properly 
equipped and resourced to meet your requirements.
    Efforts to grow the Army and Marine Corps, theater 
requirements for heavily armored vehicles and increased demand 
for intra-theater aircraft due to roadside bombs and impassible 
terrain are just a few of the challenges that shape your 
requirements.
    If we don't understand these requirements from a joint 
perspective, we will continue to have a military with 
capability gaps in some areas and duplication in others.
    This results in the inefficient allocation of our Nation's 
precious resources at a time when we simply cannot afford it.
    For that, Mr. Chairman, I am thankful to you for holding 
this very important and very timely hearing.
    General McNabb, I look forward to your testimony.
    Mr. Taylor. Thank you, Mr. Bartlett.
    General, you are now recognized.

  STATEMENT OF GEN. DUNCAN J. MCNABB, USAF, COMMANDER, UNITED 
                 STATES TRANSPORTATION COMMAND

    General McNabb. Chairman Taylor, Chairman Abercrombie, 
Congressman Bartlett, Congressman Akin, and distinguished 
members of the committees, it is indeed my privilege to be with 
you today representing the men and women of U.S. Transportation 
Command, more than 136,000 of the world's finest logistics 
professionals.
    I am pleased to have this opportunity to highlight the 
state of our command and the strategic capabilities this team 
gives to our Nation.
    USTRANSCOM provides strategic lift, deployment and 
integrated end-to-end sustainment and distribution capabilities 
unmatched by any other nation. This total force team of active 
duty, Guard, Reserve, civilian, contractors and commercial 
partners delivers logistics solutions which enable the 
combatant commanders to succeed anywhere in the world.
    The Chairman of the Joint Chiefs, Admiral Mike Mullen, 
visited TRANSCOM last week and described logistics capabilities 
at TRANSCOM as like oxygen--you take it for granted unless you 
don't have it, because when you don't have it, you die.
    We know the Nation and our war fighters depend upon us and 
we are honored to deliver. And this committee is well aware 
that it is our great people that get it done. It is our total 
force, air crews flying combat approaches at night on night 
vision goggles, or airdropping supplies to sustain our troops 
in Iraq, Afghanistan and around the globe.
    It is our refueling crews that deliver five million pounds 
of fuel every day, at night and in the weather, extending the 
reach of our joint force and coalition partners.
    On any given day, our military and commercial crews, with 
maintenance teams and aerial porters behind them, execute more 
than 900 sorties. That is a takeoff and landing every 90 
seconds, sometimes in the most austere places on the globe, 
like Antarctica, or the most dangerous, like a forward 
operating base under fire in Afghanistan.
    It is our merchant mariners and military and civilian port 
operators who are loading, offloading or sailing 35 to 45 ships 
every day to support the war fighter, carrying cargo, like 
hundreds of Mine Resistant Ambush Protected (MRAPs), life-
saving vehicles for the men and women who put their lives on 
the line.
    It is our terminal operators executing hundreds of 
containers, domestic freight and railcar shipments, pushing 
units and their vital supplies to the fight and ultimately 
bringing home to the outstretched arms of a family and friends.
    It is our contingency response groups, a joint task force, 
port opening experts who arrive first to open up the flow in 
contingency or disaster relief operations.
    It is our commercial airlift and sealift partners standing 
with us side-by-side, enduring relationships that allow us to 
open up new avenues of supply, for instance, from the north 
into Afghanistan, or support the Nation during times of surge.
    It is our medical crews and critical care teams tending to 
our wounded warriors, rapidly delivering them from the 
battlefield to the finest world class care on the planet, 
saving lives and families at the same time.
    And it is our crews bringing back fallen comrades, 
transporting heroes dressed in our Nation's colors, Americans 
returning with dignity to our country, which owes them so much.
    It is this logistics team that gives our Nation unrivaled 
global reach, committed to serving our Nation's war fighters by 
delivering the right stuff to the right place at the right time 
and at the best value.
    Whether it is sustaining the fight, providing disaster 
relief to friends in need or moving six brigades 
simultaneously, we are there. Whether at home or abroad, this 
championship team succeeds by giving the combatant commanders 
what they need.
    And the support of these committees has been instrumental 
in providing the resources our team needs to win, and I thank 
you.
    Chairman Taylor and Chairman Abercrombie, we have learned 
many lessons as a Nation at war and your support on key 
programs has allowed us to take global mobility to new heights.
    You have given us the large, medium-speed, roll-on/roll-off 
ships and supported upgrades to the ready reserve fleet, all of 
which have been tremendously successful over the last seven 
years, and the new Joint High-Speed Vessels will give us even 
greater flexibility.
    The C-130J and the C-17 have come of age since 9/11 and 
have allowed us to change how we support the combatant 
commanders by air. The current C-5, C-130 and KC-10 
modernization programs will also make an enormous difference in 
our capability and reliability in support of the war fighter.
    And my top priority remains the recapitalization of our 
aging tanker fleet. The KC-X will be a game-changer. Its value 
as a tanker will be tremendous. Its value as a multirole 
platform to the mobility enterprise will be incomparable.
    It will do for the whole mobility world what the C-17 did 
for the theater and strategic airlift. It will be an ultimate 
mobility force multiplier.
    Chairman Taylor and Chairman Abercrombie, I am grateful to 
you and the committees for inviting me to appear before you 
today to discuss our TRANSCOM and distribution process teams, 
the critically important work we do, and the challenges and 
issues we face.
    I respectfully request my written testimony be submitted 
for the record, and I look forward to your questions.
    [The prepared statement of General McNabb can be found in 
the Appendix on page 37.]
    Mr. Taylor. Without objection.
    General, again, thank you for being with us. And I know 
there are a number of members that have their questions, but I 
would like to start off and, one, I want to compliment you for 
the job you are doing and I realize how difficult it is.
    You probably could not pick a worse place on earth to be 
involved in a conflict than Afghanistan. All one has to do is 
look at a map and realize there is just no easy way to get 
things there.
    So I do want to compliment you on the job you are doing 
thus far.
    I also have become aware that in the past year or so, about 
130 drivers for the contactor to Maersk have been murdered just 
transiting Pakistan. I am aware of the attacks on the convoys 
in Pakistan, the hijackings of trucks in Pakistan.
    And I have heard you talk about the different options, 
other than Pakistan, for getting things there, the 50-day 
overland route from the north, going through China, going 
through Russia.
    None of them appear to be very good ideas. And I realize 
that, again, we could not have picked a worse place to be in a 
conflict, in my opinion, as far as resupply.
    What I am curious is when you fly over Pakistan, 
particularly toward the Iranian border, you fly for hours and 
see virtually nothing. Virtually nothing. It is a very 
uninhabited area.
    Has any thought been given to using a port other than 
Karachi and using those roads closer to the Iranian border as 
an alternate route for getting into Pakistan, with the idea 
being that I would think it would be easier to defend a road 
where there are fewer people rather than more people? And that 
if someone is out there in that desert, they are most likely 
out there to cause you harm rather than, again, transiting 
these routes where, traditionally, I believe, the towns in 
Pakistan are one day's walk apart from each other. Which means 
there are a lot of them that these trucks have to transit, and 
you have got several hundred trucks a day transiting a 
dangerous area before they even get to Afghanistan.
    So I am curious. Again, I know you are at the Russian 
option, you are looking at the Chinese option, you are looking 
at the Turkish, Azerbaijan, Turkmenistan option.
    But it would seem that it would at least be worth exploring 
an alternative route through Pakistan to resupply our troops. 
And again, maybe the Pakistan government is saying that is all 
out of the question.
    But I am curious if you have even looked into that.
    General McNabb. Chairman, in fact, we got that question and 
I think it was probably one of the visits that we had up here 
on the Hill, I think you either your or Chairman Abercrombie 
asked us to take a look at----
    Mr. Abercrombie. Would you move just a touch closer to your 
mike, please? Thank you.
    General McNabb. Yes, sir.
    You or Chairman Abercrombie had asked about that and one of 
the places that they looked at, something that General Petraeus 
had actually asked us to examine.
    I think the big part there is that it is really the 
infrastructure after you get into the ports. It is what is the 
road like. As we look for connecting roads, large enough 
connecting roads, they estimate that it will take 5 years to 
build a road that would go up north and kind of join up with 
the rest of the lines of communications, and they are thinking 
even 10 years for a railroad, which eventually is probably good 
stuff to do that would probably be in Pakistan's interest to do 
anyway.
    But I would just say that at this point, we would have to 
build that road, as well. So right now, your road network, if 
you came into that port, would still go back to the east to get 
up into those major highways.
    When you talk about lines of communication, you are looking 
at the whole types of networks, like your road and rail, to see 
what you can do for throughput.
    So when you go through mountains or you go through 
different areas, it is harder, obviously, if it is mountainous. 
And you have it exactly right. When you think about 
Afghanistan, you really are talking about different terrain 
than what we are used to, much different than Iraq.
    And so when you look at the number of ways and passes that 
you can get into in Afghanistan, they actually are fairly 
limited.
    I know that last week, Admiral Harnitchek showed you that 
there are five major ways to get into Afghanistan and that is 
from historic times. It is just tough to get through those 
very, very high mountains in a reasonable way, which is one of 
the reasons we have looked to the northern side today can we 
bring in things from the north.
    Whenever I think about a ground network, I would like to 
have lots of options. If you have one, you kind of are at risk. 
So as a logistician, you are always saying, ``Well, I want to 
have multiple options. So that whatever way you go, I can go a 
different way if I end up having some trouble.''
    The success on the northern distribution network--and we 
call it a network because it is not one line, it is a number of 
lines and what you want to do is use normal commercial routes 
that already have rail, the road infrastructure is already 
built, because anything that you have to go in and build, 
obviously, will be much harder, especially in another country 
where you go if you expected them to build that for you.
    So that is kind of where we are headed on looking at the 
lines of communication. I totally agree with you that 
Afghanistan is much harder. You couldn't choose a harder place.
    Mr. Taylor. What is the--I am sure you measure your 
instantaneous rate of change as far as the security of those 
vehicles transiting Pakistan.
    General McNabb. Right.
    Mr. Taylor. Is it getting better or is it getting worse?
    General McNabb. What I would say is it has--over the last 
two or three months, we saw, in December, quite a few attacks. 
It actually has gone down on the number of vehicles that 
actually have been attacked.
    But again, it is something that gives us great concern. In 
fact, that is one of the reasons that we went to the north to 
say, ``Hey, can we have some alternative ways of coming in.''
    When you get into Afghanistan itself, when you talk about 
the ring road, same thing applies. Something that General 
Petraeus and I talked about is that we are going to have to 
figure out as we go in there, as we increase the troop presence 
there, we will have to look at which areas will you secure, 
which areas will you convoy through, and which areas will you 
have to jump over, in other words, go by vertical lift, much 
like we did in Iraq between al Asad and al Taquaddum.
    It was a very dangerous road, so we went above it, took C-
130s and C-17s and basically took all air eligible cargo for 
the Marines and took it over the place where they were under 
attack, and I think that we will look at the same way in 
Afghanistan.
    Mr. Taylor. Mr. Abercrombie.
    Mr. Abercrombie. General, I am a little disappointed in the 
testimony here with regard to what the chairman was just 
speaking about.
    There is no significant--at least I don't have in front of 
me any significant maps or topography or any testimony that I 
can see with regard to where you get the idea that it would 
take 5 years to build a road or 10 years to build a railroad.
    You say in your testimony that you have made significant 
progress in partnership with the Department of State about 
establishing new routes, but there is nothing here, at least in 
the testimony to me, about anything--of consultations with the 
Pakistan government, about whether or not to have, say, a 
cooperative venture coming out of the Arabian Sea, moving 
toward southern Afghanistan.
    I mean, I suppose we can do this all on our own, but that 
is what I thought you were going to be talking about today.
    What is the origin of your idea 5 years for a road and 10 
years for a railroad?
    General McNabb. Chairman, that was in discussion with the 
theater, talking to U.S. Central Command (CENTCOM) and talking 
to Pakistan, taking a look at what those roads look like, using 
our intelligence (INTEL) sources.
    I would also say I am open to continuing to work that. I 
think that any alternative that we can do is useful, Chairman. 
Please don't get me wrong.
    Mr. Abercrombie. And in your testimony, you say, for 
example, that you had to fly. You were apparently able to put 
something together pretty quick here, Georgian troops serving 
in Iraq back to Georgia in less than 92 hours.
    You flew 14 C-17 missions to get 1,700 Georgian troops back 
to Georgia. You had humanitarian rations that went.
    In other words, if it is a priority, one would think that 
the United States could move a hell of a lot faster than 5 
years or 10 years. In other words, an alternative route to this 
northern--various northern distribution routes, which includes, 
for example, going through Georgia, is not a priority.
    Can we conclude that?
    General McNabb. Chairman, please don't conclude that. What 
we have done is gone every place we can to see what kind of 
network we can come in by.
    I would tell you that the lines of communication are very 
different than, obviously, our ability to do air, and air is 
kind of your ultimate flexibility. And in fact, if we had to do 
everything by air into Afghanistan, that is what we would do. 
You would see like a Berlin----
    Mr. Abercrombie. I understand that. I am talking about 
whether our sense of priority comes in.
    Let me ask you, then. Set aside the politics of it for the 
moment and consider, for our conversation's sake, that we were 
making this a priority, moving in from the Arabian Sea, as 
directly north as possible out of port on the Arabian Sea near 
the Iranian border or west of Karachi, going into southern 
Pakistan.
    Now, I am presuming that if you know--if you even have a 
number of years attached to road and rail, that this has been 
looked at in some detail.
    What would it take to do it? Set aside the politics and set 
aside the rest of it. What would it take?
    General McNabb. Chairman, I would have to take that for the 
record and come back to you, because if you are talking about 
building a new road network or a new rail network going through 
Pakistan on the west side, which is what I think you are 
referring to, we would have to go--we have looked at the 
initial portion.
    I would say that is right now what we understand the 
Pakistanis plan to do. As we look at that, we would have to 
come back to you and say, ``Here is what we could do to help.'' 
Obviously, there are very heavy political issues at bay there 
and, obviously, it goes kind of beyond----
    Mr. Abercrombie. Wait. The heavy political issues. You are 
talking about Pakistan, ostensibly an ally, whom you say wants 
to do this, so that it would just be Pakistan and ourselves on 
a project that both want to get done or could get--one wants to 
do and the other could be of assistance in doing, that we could 
control, that we could monitor, as opposed to coming through 
China, coming through Russia, coming through God knows how many 
multiple political and regional issues elsewhere, along 
commercial routes that are impossible to monitor and to guard, 
let alone taking into account military cargo that has to go 
through.
    Commercial cargo is tough enough as it is. Forgive me, but 
taking it for the record, why isn't that available right now?
    The reason that that is so important is I can't even begin 
to figure out how many years we intend to stay in Afghanistan, 
let alone what we are going to do when we get there.
    Your own testimony this morning says you don't have a clear 
idea of where troops are going, what they are going to do. You 
even talk about having to leapfrog different areas.
    You could be dealing with hundreds-of-thousands of troops 
before this is over. We are stumbling on into--well, I won't 
get into the political side of it. You needn't answer anything 
about that.
    But my point here is if we are going to stumble into 
Afghanistan the same way we stumbled into Iraq, which is, from 
what I can see, exactly what we are going to do, you have to 
have at least as much logistical control as possible.
    I sympathize and empathize with what you have to accomplish 
in the Transportation Command. This is one of these unified 
commands here. Believe me, I totally empathize with what you 
are trying to accomplish.
    I live in an area 2,500 miles from everything else. I 
understand the whole question of transportation, believe me, 
from supplies of everything, from food, from oil, from 
everything else that we have to get. I understand that. That is 
crystal clear what we have to accomplish just to get to Hawaii.
    But in this instance, I cannot understand how, if the 
Pakistan government wants to do this and we, at a minimum, have 
a logistical interest in trying to accomplish it, why this 
isn't a higher priority.
    General McNabb. Chairman, if I could, maybe I could answer 
it this way.
    When you look at the requirement that we have to do to make 
sure that we sustain our forces and take the unit equipment 
through, it ends up being about 78 to 80 containers a day. That 
is what it takes.
    We are trying right now--and the capacity to go through the 
Pak Lines of Communication (LOC) is probably three times that. 
So the current Pakistan LOC, that is what it takes.
    We are trying to open up, also, from the north, an ability 
to do 100 to 200 containers a day so that we have another 
option to be able to make sure that we can do that.
    We are looking to the south, making sure that we can go 
with that, as well. We are making sure that we can go into 
Afghanistan by air, if, in fact, we have to do all of that.
    All of that is set in place. I will look for any way and we 
will--Chairman, we will look at that and we have been looking 
at that and I will say that if that ends up making sense 
overall, we will be glad to pursue it.
    And I will be glad to come back and say ``Here is a way we 
could get that done.'' Right now, building that road, given 
that you already have an existing infrastructure, it just 
becomes a--going through those mountains will not be easy.
    Mr. Abercrombie. It all depends on how important it is.
    Let me ask you--just indulge me a moment more. Now, there 
is talk of sending more troops. Where they are going to be 
sent, nobody knows. It is just we are talking numbers now, as 
if numbers will do it.
    When you did the original report, you are having to do this 
as you go along, because the report that we have available to 
us from 2005 and the updates and the one that you apparently 
are not going to be able to get to us until next month, right? 
The update report that we ordered you to do last year.
    When we get all these reports, they didn't take into 
account--the 2005 couldn't take into account the increase in 
the end strength, those kinds of things.
    So whether we are talking about Afghanistan or elsewhere, 
you have lots more on your plate right now than you did when 
that baseline report of 2005 was given to us.
    Is that correct?
    General McNabb. Chairman, that is true. The mobility 
capability study, the things that have changed will be in the 
new report, the mobility, capability and requirements study 
2016.
    So we have taken into account that we are fighting a little 
bit differently, the way we are using assets, the growth of the 
Army and Marines, and the Future Combat System as the types of 
things that they are taking a look at, as well as updated 
scenarios.
    Mr. Abercrombie. Let me just conclude then. I have gone 
over my time.
    Do you have then actively under consideration this what I 
will call a southern route?
    General McNabb. Chairman, we look at every option. It is a 
network and I will look--I mean, we ended in Iraq, we built a 
route now that goes through Jordan to the port in Aqaba.
    We look at every way we could do that would make sense and 
this one we will look at, Chairman. And I would say that the 
more routes I have, as a logistician, the happier I am.
    If I have got four or five routes rather than one, we win. 
And what it allows me to do is to tell General Petraeus, ``You 
do not need to worry about this.'' We will figure out a way to 
get the stuff in so that our forces don't need to worry about 
that.
    Mr. Abercrombie. Excuse me. Did you say Aqaba? I want to 
make sure I understood. Did you say you are considering 
utilizing Aqaba?
    General McNabb. Chairman, right now, as you think about the 
Jordan route, we go all the way to the sea.
    Mr. Abercrombie. That is to go into Iraq.
    General McNabb. Yes, sir. I am just saying that we have 
developed routes that are completely different than when we 
started, if we can figure out a way to make that make sense. We 
work with everybody involved.
    Mr. Abercrombie. If you are using Aqaba, you are certainly 
talking about tough conditions, as well, are you not?
    General McNabb. Yes, sir.
    Mr. Abercrombie. You don't have to see ``Lawrence of 
Arabia'' for the 16th time to understand that.
    General McNabb. And when you look at the ports in Iraq, 
when you think about where we started, coming directly up from 
Kuwait, if you look at today, we use Umm Kasar, we use the 
Jordan route. We have worked with Turkey to use them, as well.
    What we do is we constantly work it to say any way 
possible.
    Mr. Abercrombie. I would like to be--I, certainly, Mr. 
Chairman, request, I would like to be briefed by your command 
with regard to what kind of activity has taken place in either 
your command or the Pentagon or both with regard to a serious--
I am presuming a serious look at coming out of the Arabian Sea 
into Afghanistan.
    If we are going to be involved in Afghanistan, we have to 
have a supply route that we can control as much as humanly 
possible and the fact that there may be logistical or monetary 
or political difficulties, to me, is entirely beside the point, 
particularly in the context of what the President said last 
night with regard to what he considers important or central or 
crucial to the question of terrorism.
    General McNabb. Chairman, and you all have always been very 
supportive. If we can come up with a way, you all have helped 
us.
    Mr. Abercrombie. Thank you.
    General McNabb. And that has not changed and I appreciate 
that.
    Mr. Taylor. Thank the gentleman.
    General, for the record, we have approximately 30,000 
troops in Afghanistan now and you are saying it takes about 70 
twenty-foot equivalent units (TEUs) a day to resupply them.
    General McNabb. Seventy-eight for the stuff that we use by 
ground.
    Mr. Taylor. So if the force is increased by 17,000, you 
would expect half, again, as many TEUs would be necessary.
    General McNabb. Yes, Chairman. And then, obviously, as we 
move the forces in, obviously, the movement of those forces 
would--the unit equipment will be higher until we get them 
moved in and stabilized.
    So that is kind of what we are thinking along the lines of. 
That will be the requirement. Obviously, everything that we 
take that is sensitive we take in by air now and that is what 
we will continue to do.
    So what we are talking about is the stuff like construction 
material, food. That is what we bring in by surface.
    Mr. Taylor. Thank you, sir.
    The chair recognizes the gentleman from Maryland, Mr. 
Bartlett.
    Mr. Bartlett. Thank you very much.
    General McNabb, I have in front of me a Congressional 
Research Service article, October 10, 2008, entitled ``Military 
Airlift: The Joint Cargo Aircraft Program.''
    It is a very interesting story of the rather tortured 
history of developing intra-theater lift.
    I would gather that in Iraq and Afghanistan, that is quite 
important. And my question is: what are your thoughts on the 
value of the Joint Cargo Aircraft (JCA) to the Air Force and, 
in particular, to TRANSCOM?
    General McNabb. Certainly, Congressman Bartlett. I have 
supported the Joint Cargo Aircraft both for the Air Force and 
Army as part of our intra-theater airlift capability that I 
think will bring great value to the fight.
    Today, we do intra-theater airlift primarily with C-17s and 
C-130s, C-130 being the workhorse, but C-17 as we need them, 
and that is actually paid great dividends for us both in Iraq 
and in Afghanistan.
    And I know many of the members of the committee, if not 
all, have flown on both C-17s and 130s into both Iraq and 
Afghanistan.
    The JCA is smaller than a 130 and would allow us to--it 
kind of fills a very nice niche of the direct support to the 
Army. That is where they are planning to use it.
    They were finding that they were burning up CH-47 blades. 
So when you look at it from an enterprise standpoint, it would 
make sense that you could reduce the wear and tear on them.
    You still will have to do helicopter lift, but that allows 
you to only do it when you need to do the vertical lift using 
helicopters.
    The Special Operations Forces (SOF) also have a need. So 
you put those two in and, from our standpoint, sometimes tails 
are more important than capacity, especially when you talk 
about a dispersed operation, where we anticipate we will have 
in Afghanistan, where you have these smaller forward operating 
bases where you need to get one or two pallets in, you don't 
need six or eight pallets.
    So the JCA will allow us to more optimize the 130s and the 
C-17s. And so it kind of fills a very nice niche in there, 
especially when you talk about unconventional warfare or being 
able to resupply a dispersed force. That is what we see.
    Mr. Bartlett. Thank you very much.
    I have a question about heavier lift, the C-5 and the C-17. 
The early assessment indicated that we needed 111 re-engined 
and modernized C-5s. The cost went up and so our need, in 
quotation marks, kind of ``went down.'' We now have 52.
    And my question is: Is 52 enough? If it is not enough, what 
is the way forward, to look at the other 59 or look at the C-
17?
    General McNabb. Congressman Bartlett, you and I and this 
committee, we have talked a lot about this over the years 
before as the Air Mobility Command commander.
    As Chairman Abercrombie talked about, the mobility/
capability study was kind of at the forefront and it said, at 
the end of that, we need about 300, it is 292 to 383, but we 
need about 300 strategic lifters and, at that point, we said 
that would be 180 C-17s and 111 C-5s, 112, at that point, 
modernized, so re-engined.
    But like anything, that was based on price and as the cost 
on the re-engining of the C-5 went up, then you have to make 
tradeoffs and decide what do we do about that increased cost of 
the C-5 re-engining program.
    The Nunn-McCurdy breach, which we came back to the Congress 
with, had everybody involved, to include the requirements side 
under the Joint Requirements Oversight Council (JROC), got all 
the services, got TRANSCOM, and said, ``Okay, what are we going 
to do about this and what is the best way forward given that 
cost increase, what should we do.''
    And out of that Nunn-McCurdy, we decided that the 205 C-17s 
that we have now, if you modernize the 52, as you mentioned, 
and then do an avionics modernization program on the remaining 
C-5s, we actually grow the force structure a little bit, but we 
still meet the requirements of 33.95 million ton miles that we 
must have in our organic fleet.
    So that is where it sits right now. The Nunn-McCurdy was 
very well vetted. Everybody played in that and that is kind of 
what we did to make up for the fact that the re-engining 
program became too costly to do on the C-5As.
    I would say that if that cost comes down, in other words, 
our first one has been delivered, we will see how it does. The 
test has gone well. The reliability has gone well. We are very 
hopeful and that does give us an option that if, in fact, that 
cost comes down or other events, like the outcome of the new 
study dictates, we can take another look to see if we want to 
do more of those.
    But it does give us a little bit of an insurance policy, 
if, in fact, we want to do that. But again, it will really be 
on cost and that is tended to be the big issue that has always 
come up on this.
    As with any acquisition program, competition really does 
work and, in fact, that you have other options, it allows you 
to say, ``Okay, what are we going to do best now if that is 
going to be a cost overrun.''
    Mr. Bartlett. I understand that competition in this program 
is a little difficult since we don't own the technical data 
which we paid for.
    Are we going to stop this kind of contracting so that we 
can, as you indicated, achieve the advantages of competition in 
the future?
    General McNabb. Congressman Bartlett, I would have to defer 
to the services on that, but I would say that anything that 
makes our acquisition process better, obviously, all of us are 
for.
    And I would say that the fact that when you really bring 
competition and you make it full in every way you can, it 
really does pay big dividends for us and certainly does for me 
as the TRANSCOM commander.
    Mr. Bartlett. But isn't it true on this program that we 
really can't compete it because we don't own the data?
    General McNabb. Well, the competition, obviously, has been 
whether or not you do additional C-17s. That has been the 
competition against the re-engining program.
    Mr. Bartlett. I am talking about the C-5 program. We really 
cannot compete that one, can we, because we do not own the 
data?
    General McNabb. You mean within the C--you mean have 
somebody else do the C-5, the upgrade.
    Mr. Bartlett. Yes. My understanding is we do not own that 
data, so we cannot compete it.
    General McNabb. Congressman, that would be my 
understanding, as well, but I would have to come back for the 
record.
    Mr. Bartlett. This has happened a number of times and I 
think, as a committee, we are concerned that we ought not 
contract this way.
    The taxpayer is paying for it. The taxpayer ought to own 
it. And we find that the contracts are written such that, at 
the end of the day, we pay for it, but somebody else owns it, 
so that we have a noncompetitive situation.
    This is not in the best interest of either the taxpayer or 
our services and I would hope that we would end this kind of 
contracting.
    General McNabb. Congressman Bartlett, that certainly makes 
sense to me and we will certainly pass that back to the 
services, because I do think they are looking at all of those 
things to make sure that they enhance that.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Bartlett. You have raised an 
excellent point.
    I am going to ask Captain Ebbs to see if that is the law of 
the land now and if it is not, we will certainly welcome a 
Bartlett amendment to the Seapower markup this year that says 
that from now on, whenever we purchase something, we get 
technical rights.
    The chair now recognizes, in the order that people were 
here, by seniority, that were here at the gavel, the gentleman 
from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    General, thank you so much for your service and for 
testifying before this committee today.
    The mobility capability study didn't account for 159 
percent utilization rate of the current fleet of C-17 aircraft 
and, as Chairman of the Readiness Subcommittee, I am very 
concerned that the continued utilization rate of our strategic 
airlifters will affect our long-term readiness.
    What steps are being taken to reduce utilization rates to 
avoid the unnecessary aging of the aircraft?
    And I just came from another part of the world, some of us, 
as you know, Okinawa and Guam and Korea, and we have another 
serious problem with North Korea.
    And I know that for you to be able to move some of the 
equipment or personnel, maybe it takes tankers to refuel them 
and I know it probably takes so many tankers to refuel so many 
jet fighters or so many Airborne Warning and Control System 
(AWACS).
    As far as equipment, for you to be able to do the job that 
you will have to do, do you feel that you have adequate 
equipment to do that now?
    General McNabb. Congressman Ortiz, I do and I think 
especially with the modernization programs that we have on the 
books and the great support of both these committees, when I 
look at the airlift and sealift accounts, you all have been 
very good about helping us make sure we have the resources that 
we need.
    Obviously, that never stops. You have got to constantly 
continue resourcing that, recapitalizing and modernizing the 
fleet.
    As you know, we use our commercial partners to a great 
degree, our civil reserve air fleet, on the air side, our visa 
program on the sea side, and when you think about what that 
brings, those fleets are being constantly upgraded and I would 
say that that really has paid big dividends for us.
    Our merchant mariners, their ability to man that, we have 
got that all worked out. So whenever we have to surge, they are 
all set. And I think those programs have really shown their 
value, especially over the last seven years.
    And I think that one of the things that we are watching 
very closely, especially with the downturn in the economy, is 
to make sure that if there is excess capacity out there, that 
we upgrade both our sealift fleet and our air fleet on the 
commercial side with the newer, more modern types of vessels 
and aircraft.
    And it is an opportunity and I have talked to all the 
carriers about that, and I think that that is the way we stay 
at this. We just constantly make sure that we are getting the 
best value out of the ships that we hold and I do think that is 
working.
    Mr. Ortiz. Have you had problems getting the equipment to 
the areas? I know that drivers have been killed and we are 
talking about moving so many containers and stuff like that.
    Are we losing any of the equipment?
    Chairman Abercrombie raised a question. If we bring in 
30,000 more troops to Afghanistan and if we are having problems 
equipping them now because of the violence and because they are 
attacking our convoys, can we do that in a way where we don't 
put our troops in harm's way?
    General McNabb. Congressman Ortiz, I believe so and one of 
the things that I--with the tools that you all have given us, 
again, we have lots of options to make sure that we get the 
equipment that they need in.
    As we were talking before about the 78 containers a day 
that we need to kind of hold even, make sure that we get the 
stuff in to the theater that they need, again, that is stuff 
that comes in by ground, if you think about it, that is stuff 
that if, in fact, you don't get it, we can get it in the next 
day, it is stuff like construction materials, cement.
    It is food, it is water. It is things that as long as we 
get more in than that 78, we are okay. And we watch our 7-day 
average. Our 7-day average this week was--if you look at how 
much we have been getting in, it is about 140 containers a day.
    I watch that every day to make sure that we can get that 
through. As we do the surge of the--as we increase the number 
of troops in Afghanistan, there will be a new number that we 
want to make sure that we can get in.
    As Chairman Abercrombie and I were discussing, we will look 
at every avenue that we can get in and try to figure out the 
cheapest and best way and if that cheapest and best way doesn't 
work, we will figure out another way.
    Sometimes it is more expensive and I will say, ultimately, 
if we have to bring it in by air, obviously, that is much more 
expensive, but we can do that. And that is how we said it for 
General Petraeus to say however you need--my job is to make 
sure that we can get that stuff through no matter what the 
threat will be.
    You bring up a great point. If you ask me what I worry 
about at night, it is the fact that our supply chain is always 
under attack. My job, I think, that you have given to us is to 
make sure that we get that through regardless of the attacks on 
it, because you don't want to make this a vulnerability. You 
don't want to have people think that it is a vulnerability, and 
I, quite, frankly, do not think it is.
    I think we will get the stuff through. That is the part 
that I would play in.
    Mr. Ortiz. And the reason I ask you, General, is because I 
know that there have been thousands of weapons missing that we 
cannot account for, into the hundreds of thousands of guns and 
weapons, even though we know that most of the lethal weapons 
are airlifted, not sent on convoys.
    But still, I just hope that whatever we send to our troops 
get to our troops, because we hate to see these types of lethal 
weapons be used against our troops. So that is another concern 
that I have.
    General McNabb. Chairman, that is an absolutely excellent 
concern and that is why when we say any sensitive, any kinetic 
kinds of material for our forces we bring in by air.
    Right now, all the MRAPs come in by air into Afghanistan, 
Strykers, all of that stuff will be moved by air because of the 
sensitivity. We will not send that through the ground line of 
communication because of the attacks.
    But when I think about the ground lines being under attack, 
I think about piracy, I think about shooting at our aircraft. 
Obviously, again, with the support of these two committees in 
support of our defensive systems that go on our aircraft, all 
of that plays to allow us to make sure that we get the stuff 
through and that is our job and that is what we will do.
    The fourth area that we, quite frankly, get attacked at is 
our cyber and we have people looking every day, because if you 
can figure out what people are doing logistically, you many 
times can figure out what they are doing.
    And we know that, but the nature of our job, we end up 
saying, ``Here is how we will do that.''
    Mr. Ortiz. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you.
    The chair recognizes the gentleman from Connecticut, Mr. 
Courtney, for five minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    Actually, I just have a quick follow up to Mr. Bartlett's 
questions regarding the Joint Cargo Aircraft.
    General, as you know, the issue of where the home is for 
that program has been kind of a punching bag up here for the 
last couple of years.
    The quadrennial roles and missions review report that was 
issued last month stated that the Department found that the 
option that provided the most value to the joint force was to 
assign the C-27 to the Air Force and the Army, which would be a 
very good outcome as far as Air National Guards are concerned.
    And I just want to ask you, for the record, do you agree 
with that conclusion?
    General McNabb. Yes, Congressman. What I would say is as 
long as we have common standards and that when you bring it 
forward, it fits into our existing system, which everybody has 
agreed it will do, whether it is Army, whether it is Air Force, 
whether it is Air National Guard, Army National Guard, and 
everybody has agreed to that.
    And that has to do with not only the direct support to the 
forces on the ground providing that capability, but it is also 
the ability that if you have got those excess, that they fall 
into the common user pool so that we can use them.
    All of that movement, especially as a distribution process 
owner, I care about all of that stuff, so as long as it fits in 
there. And right now, everybody has agreed that it will.
    Mr. Taylor. Thank you, Mr. Courtney.
    The chair now recognizes the gentleman from Georgia, Mr. 
Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    I guess I will start by following up on JCA issues, as 
well.
    The program, as originally envisioned, contemplated a lot 
more platforms and now I think both services have greatly 
reduced what they anticipated taking advantage of.
    Where are we as far as making decisions concerning long-
term sustainment, modernization, maintenance is concerned?
    There was a split of view between the Army and the Air 
Force. The Army doesn't really have the depot capacity that 
must be maintained for the good of the country over a long 
period of time and, consequently, filled with work. So the Army 
was heading towards Contractor Logistics Support (CLS), 
contractor maintenance.
    And the Air Force, of course, was pretty anxious to get 
data rights and to have an understanding with the contractor 
concerning the transfer of responsibility to a depot in the 
original acquisition agreements, both by the Army and the Air 
Force.
    Where are we on that, do you know?
    General McNabb. Congressman, I would have to go back and 
take that for the record. But in general, I think they are 
still have the discussion, especially as they are working 
through the Special Operations Force buy, as well, to make sure 
that as you look at all--because you will have SOF, Army and 
Air Force--how do we best look at it as an enterprise and how 
we will best do that.
    I know there are a lot of discussions that are going on and 
I know that in the Pentagon, it doesn't come under me as 
TRANSCOM. So I would have to make sure that folks got an answer 
back to you on that.
    Mr. Marshall. I think it is widely conceded at this point 
that the C-17 acquisition process was flawed because we simply 
didn't take into account, appropriately take into account the 
need for a gradual transition to depot maintenance, sustainment 
and modernization.
    And so we are just sort of struggling back and forth with 
Boeing on how we are actually going to accomplish that, and I 
am sure it is costing us a lot more money than it should have 
had we properly planned for this in advance.
    So whatever influence you and TRANSCOM can have on the 
acquisition teams to get this done right. There is an 
additional challenge, obviously, and that is you have got two 
branches, not just one, that are detailed with the 
responsibility to somehow come together and make this happen 
appropriately.
    Are we in the process now of stockpiling, trying to 
stockpile critical commodities now that commodity prices are 
lower?
    Some of the dramatic cost increases, whether it is 
modernization or it is initial development, some of the 
dramatic cost increases have been associated with the 
contractor referencing huge, extraordinary increase in 
commodity prices for critical components.
    Are we taking advantage right now of very low commodity 
prices to go ahead and stockpile?
    General McNabb. Chairman, I would have to check the 
specifics, but it is kind of the same issue we were talking 
about on our sealift and airlift fleet. You want to take 
advantage of the market when it is like this, to make sure that 
you don't miss an opportunity, and I will definitely take that 
back and ask that question.
    Obviously, it is an acquisition and a service question, but 
I will go back and ask it. I couldn't agree with you more.
    Mr. Marshall. Well, thank you. Ultimately, it is going to 
wind up affecting your mission to the extent you are not able 
to acquire the assets that you need to accomplish the mission, 
because it is just too costly.
    There has been this back-and-forth concerning whether or 
not to Reliability Enhancement and Re-engining Program (RERP) 
the C-5As and we have got the C-5A which has been RERP'd and 
Avionics Modernization Program (AMP)'d and is now being tested.
    We have had various estimates concerning the appropriate 
number, the total number of C-17s that we are going to need and 
what the size of our fleet, C-17/C-5, should be.
    If I recall correctly, in the Mobility Capabilities Study 
(MCS), they were contemplating that the C-5As would all be 
RERP'd and AMP'd.
    General McNabb. Right.
    Mr. Marshall. Does that say that the MCS really--the figure 
adopted by the MCS, which is a flawed study and I think we all 
concede that it is a flawed study at this point, that figure 
should be higher, assuming that we don't RERP the C-5A.
    General McNabb. Right, yes. In fact, when you look at the 
fact that right now our program is to have 350, that is what 
came out of the--315, which came out of the Nunn-McCurdy, 
before we were at the 292 and then to 300 level, it was to make 
up for that lost capacity on not re-engining the C-5As.
    Again, I think that is one that, as we get more tests on 
the C-5s--as you mentioned, we have got three flying, one 
delivered, that we are going to start taking a good, hard look 
at and if the reliability and the cost stays down, I think that 
gives us--that will be one thing that we will consider.
    I tell all of the major suppliers that what I am looking 
for is the perfect airplane for free and then we can negotiate 
from there. Obviously, if they can get that cost down, it 
changes the dynamics and then things that may not have made 
sense before make sense now.
    And I think that now that the C-5 is starting to move, that 
re-engining program, I think it could sell itself and I think 
that is a good incentive for them.
    Mr. Marshall. I appreciate the realism of your approach. 
Would you like to take over Wall Street for us?
    Thank you, sir.
    Mr. Taylor. The chair recognizes Mr. Akin and then we will 
take a recess. There are three votes on the floor and I think 
it is about eight minutes until we have to be on the floor.
    Mr. Akin.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    And I had really--you did a great job in a private meeting 
a couple of weeks ago answering a lot of my questions.
    Just one quick one. The maps you have given us are not 
scaled. What is the distance across Pakistan there if you go--
assume that you have got containers ships or whatever it is in 
the Arabian Sea. You want to go across Pakistan into 
Afghanistan.
    How many miles is that really before you hit the 
Afghanistan border?
    General McNabb. Depending on where you go, I think it is in 
the neighborhood of 400 to 500. That is what hits me, but I 
will----
    Mr. Akin. Four to 500.
    General McNabb. That is what I would say.
    Mr. Akin. So you are still talking about a hike and a lot 
of mountains in the process, right?
    General McNabb. Right.
    Mr. Akin. Yes, okay. Thank you very much. That is all I 
had.
    Thank you, Mr. Chairman.
    Mr. Taylor. General, we are going to take about a 20-minute 
break for those three votes.
    We have got a rather large map of Pakistan and Afghanistan 
and I do think it would be worthwhile for the committee members 
if you could give us the visual of where the ships land in 
Karachi--it is my understanding it is about a five-day truck 
route just to transit Pakistan--and for the committee to get a 
full understanding of the challenges that you face and thus far 
have done a very good job of overcoming.
    General McNabb. Absolutely.
    Mr. Taylor. Thank you.
    [Recess.]
    Mr. Taylor. General, thanks again for being with us and I 
apologize for the delay. There will be votes again in about 20 
minutes. I regret that none of my Republican colleagues have 
made it back yet, but I hope they will forgive us if we 
continue.
    During the break--we had asked the General prior to the 
break if he would explain the route through Pakistan, how the 
ships are unloaded at the port of Karachi, and he made, during 
the break, a very good point that we have already lost about 
130 contract drivers transiting Pakistan.
    We don't really need to tip our hand to our foes and 
potential foes any further.
    So I would hope that you would make yourself available to 
any member of the committee that would like this information, 
but I very much respect your point that we just don't need to 
tip our hand any further to our foes.
    Having said that, the chair now recognizes the gentleman 
from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you for letting 
me participate in your hearing, even though I am not a member 
of this subcommittee.
    One of the reasons, General McNabb, I wanted to attend 
today is I think what you do is one of the most complicated 
things that is done in the military, how to figure out how to 
keep things moving around in a timely way, both on an ongoing 
basis, but then, also, on an emergent basis.
    And I had two questions I wanted to ask about. One is very 
specific about the C-130 and then a more general question.
    My C-130 question is: On page 8 of your written statement, 
you say, ``The Air Force also needs the flexibility to retire 
and replace aircraft at the end of their service life,'' and I 
think you are talking about the C-130E models there.
    I have C-130s in my district, but I don't find there is any 
value in keeping planes that you don't want, that don't fly or 
we don't think are reliable.
    I don't understand the issue. Mr. Saxton and I, before he 
retired, we kept pushing to give you all the flexibility that 
you want. On the Senate side, there is resistance to that.
    Would you explain to me where the breakdown is, because it 
is not as simple as just members want to have tails in their 
district? I think it is more complicated than that.
    Why are we having the problem that we are having and have 
we made any improvement in the last year or two on the language 
in the defense bill?
    General McNabb. Thanks, Congressman Snyder, and great to 
see you again, sir.
    We have asked the committees on a number of occasions, that 
is, you bring in new airplanes like ``Js'', we would like to 
get rid of the older stuff because our requirements are--we 
roughly need 400 C-130s, equivalents, and right now our plan is 
to make that up of C-130Js and C-130Hs through H1, 2 and 2.5 
and 3s.
    And our plan is to do avionics modernization program 
upgrades on the ``Hs'' so that they are a common fleet. Right 
now, 222 is what we plan to do on that.
    You put the ``Js'' in there and then we have the ``H'' 
model 130s that we are taking a good look at, at whether or not 
it is better to put the avionics modernization program in there 
or replace them with the ``Js'' as they become available.
    The older airplanes, like the ``E'' models, obviously, 
having opportunities that if, in fact, we wanted to take one of 
those and put a center wing box and do all the upgrades to 
them.
    I think there are airplanes like the C-130Es, they don't 
have the -15 engines, so it really doesn't make sense for us to 
put any kind of additional investment into the C-130Es. So 
basically, we are ready to retire those as we get the ``Js.''
    Where we stand now, you all have been very supportive of 
that and we have been able to start clearing those 130Es off 
the ramps. The same thing we can say about the KC-135Es.
    Dr. Snyder. You still have legal restrictions, though, do 
you not, on the ability of you all to manage the ``E'' model 
fleet?
    General McNabb. We have type 1000 storage that says we want 
to be able to get to them if we need to. I think that once we 
get the airplanes in place, the crews are all trained up, 
again, we would come back to the committee and say, ``We really 
would like to be able to just kind of get away from the type 
1000 storage and so forth,'' because we would like to use some 
of those parts.
    The other one that I would mention for the committee is 
some of these airplanes we probably could put into foreign 
military sales. If you put a center wing box, they may not need 
the avionics upgrades, depending on where the countries are.
    And there is some resale value of that equipment that, 
while it wouldn't be pertinent perhaps to what we are doing in 
Afghanistan or other places, there are other countries that 
perhaps could put a little investment in there and be able to 
have a pretty good 130.
    Dr. Snyder. There also is the cost of putting them in the 
type 1000 storage, is there not?
    General McNabb. Right.
    Dr. Snyder. Which you are all are being required to do and 
you would prefer not to do and yet it is millions-of-dollars 
that are going to maintain these planes in a status that you 
would just as soon not have them in.
    General McNabb. Absolutely.
    Dr. Snyder. Would you provide me and the committee with the 
language that you would think would be helpful?
    General McNabb. Absolutely.
    Dr. Snyder. I don't think a light ever went on, Mr. 
Chairman, but I wanted to ask just one final question.
    How do you test whether or not a product or commodity, a 
part, goes from A to B in a timely way? What kind of test do 
you run that tells you that something that is on a shelf at a 
depot somewhere in the Continental United States (CONUS) 
actually ends up in the hands of the mechanic that wants to put 
the fan belt in the vehicle?
    General McNabb. Last year was our year of metrics and one 
of the big things you have to do on an enterprise like this is 
to be able to watch the stuff and be able to say--and track it 
en route, if you can.
    I would tell you that is one of the big improvements that 
have been made. I would talk even on the Pak LOC. Our ability 
to do in-transit visibility on the containers has made a big 
difference on knowing where things are in that supply chain, 
all the way to the point of being able to say we need to 
reprioritize the flow because the pipeline--we have had the 
bridge go down, so we have got to reprioritize how we get the 
flow in.
    Dr. Snyder. Now, when you say that last year was the year 
of the metrics, are we saying the first five or six years of 
this was not a year of measuring how things go?
    General McNabb. No, sir. I would say that we have been 
doing the metrics, but we have said that we are getting to the 
point where, as the distribution process ownership, with my 
other hat, our ability to watch all this and measure it and 
say, ``Here is how that flow goes from beginning to end,'' 
shortening that supply chain, just like industry, you save lots 
of dollars.
    If you can build trust into the system, basically, people 
don't order stuff two and three times. I use FedEx and UPS as 
an example. They changed the culture, because you really did 
trust that they would get it there, and you also knew you could 
go check on it if you had to.
    Most of us don't check. If somebody says they FedEx'd it, 
we don't check it unless it didn't make it there. But we trust 
that it will get there.
    It is the same thing here. It also allows us to make 
decisions on multimodal. In some cases, it is faster to do a 
combination of surface and air rather than trying to do it all 
by air.
    That is what TRANSCOM is doing, as the distribution process 
owner, is taking a look at all of those and saying, ``Okay, 
what is the best way we can do this.''
    Some of our earlier discussion, the more options we have 
means that we can do this a lot of different ways. In many 
cases, using normal commercial practices, using normal 
commercial routes and letting our commercial carriers take care 
of this is a much better way than if we put a military solution 
in there, and you all have seen where we have done that and 
what a difference it is made.
    Dr. Snyder. Part of that commercial practice is how you 
order, too. You don't necessarily need to order one fan belt to 
be delivered. You all would probably do better if you delivered 
a box of fan belts so you only had to do it one time.
    Thank you, Mr. Chairman, for your courtesy.
    Mr. Taylor. The chair recognizes the gentleman from 
California, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    General, thank you.
    Could you tell me about your involvement with ARCENT, Army 
Central Command, at Camp Arifjan and how you are going to be 
working with them for the Iraq exfiltration?
    General McNabb. Sure. Congressman Hunter, great to see you.
    In fact, I was just down seeing General Lovelace, about two 
months ago, went by and saw them, talked about as they look at 
what they need to do across the theater, but certainly in Iraq, 
as to how do we make sure that we have got the flow right.
    In fact, we did have discussions about the different 
avenues by which we can have stuff go in and come out of that 
theater, especially Iraq.
    One of the big discussions was, for instance, the port at 
Umm Kasar. The other one was that line of communication through 
Jordan and talking about how we can look at the types of things 
that we need to have come out and then what is the best route 
to do that by; also, discussion about what we need to do by 
air, by surface, to make sure that we sort that out.
    So I think that the discussion that CENTCOM is having, in 
general, we have been in the middle of and, certainly, General 
Lovelace and that--with the Coalition Forces Land Component 
Commander (CFLCC), that is obviously one that will be big-time 
on how we do that with them.
    Mr. Hunter. Got you. I was there about five days ago 
talking to him, the general there at Camp Arifjan, and they 
were not too--they didn't know when exactly we were going to 
have our expel at that point. That was last week. We now know, 
seeing the paper, it might be August of next year.
    Their timeline, from what they were saying, that timeline 
would be extremely difficult to meet to leave properly in a 
``non-dirty'' way, because that is about 18 months out. That is 
about the bare minimum that they would need to get everything 
out.
    Are you guys involved with them to speed that up and make 
that a non-dirty move from Iraq out?
    General McNabb. Congressman, what we have done is looked at 
what will they need us to do and I would say that the strategic 
lift portion of this is not the showstopper. So we have more 
than enough to be able to handle their needs, if they need to 
accelerate it, but that is not the chokepoint.
    Obviously, they are working with that. What we have made 
sure is that we have ship availability and aircraft 
availability to be able to make sure that we can handle that, 
whatever service requirement they have.
    Mr. Hunter. Are there things you can do that they aren't 
asking for?
    General McNabb. From my end, we have plenty and they know 
it. So it is just not that kind of an issue.
    One thing we have said is, ``We will work with you, 
whatever you all need,'' to be able to make sure that we can 
open up that pipeline to whatever they need.
    As you say, it is really the issue of how much time they 
need to prepare the equipment to move it as we bring it back.
    Mr. Hunter. True, yes. That is a big chokepoint, with the 
wash rags and the Agriculture Department (AG) check and 
everything else.
    General McNabb. You bet.
    Mr. Hunter. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Taylor. Are you through, Mr. Hunter?
    Mr. Hunter. Yes, Mr. Chairman, thank you.
    Mr. Taylor. Thank you very much.
    The chair recognizes the gentleman from Virginia, Mr. 
Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General McNabb, thank you for joining us today, appreciate 
your great work there in moving our folks and all their 
supplies around. So we really appreciate that.
    One question. When I was most recently in Afghanistan, 
there was some discussion about the movement of supplies from 
Pakistan into Afghanistan and some interruption in those supply 
chains, and then I know, as we previously talked about, about 
air transport and the number of C-17s available.
    Can you shed a little more light on the current status of 
movement of supplies into Afghanistan, what the challenges are, 
what your contingencies are to deal with interruptions there?
    And I know there was some talk there, Chairman Taylor and 
myself had some discussions about airlift capacity, what 
capacity is there, and what are the contingencies to deal with 
the things we are facing, the interruption of supply chain.
    General McNabb. Thank you, Congressman.
    As we look at that theater, what we are trying to do is 
make sure we have as many options as we have, especially on the 
ground kinds of transportation.
    Obviously, getting into Afghanistan, being a landlocked 
country, there is not a whole bunch of ways to come in and 
basically there are five major gates, if you will, that allow 
us to come in.
    And from the south, we use the Torkham gate and the Chaman 
gate. There are also three from the north, Termez being the 
major one that goes that.
    What we try to do is make sure that we can--by having 
multiple options, you also have competition between these 
different ways and we try to make sure that we are not taking 
sensitive--everything that is sensitive/kinetic we take by air.
    The things that we are talking about are like food, like 
water, like fuel, like construction material, those kinds of 
things, APs and foreign military sales.
    What we are trying to do is make sure we have lots of ways 
to be able to increase that flow if we need to, especially as 
we increase forces in Afghanistan, and that if, in fact, one 
way is shut down, for whatever reason, we have other ways to be 
able to surge so that it doesn't impact the war fighter.
    Today, I use a measure of 78 containers a day. It kind of 
keeps us even with the forces that we have and kind of keeps 
everything flowing. That, obviously, will increase a little 
bit. And what I do is try to make sure that we are always 
beating 78 on the average, of which we do. Our average is about 
138 for this week, to give you an example, and we have averaged 
about 90 since the beginning of January.
    So we have kind of stayed ahead of the flow. The second 
part to that is we know that, again, if you have multiple 
options, if we end up having to do some of the stuff by air, we 
will do that, and we have promised the folks on the ground that 
``If you have something that was supposed to get to you on a 
surface and, for some reason, it doesn't make it through, you 
let us know and we will bring that in by air.''
    I have not had to do that. So that is kind of the ultimate 
guarantee, if you will.
    The other portion to that is we have worked with the folks 
in Afghanistan, along with CENTCOM, to look at all of the 
airfields and the ports going in there to see how we can 
streamline that so you can make the pipe larger.
    Termez would be an example that we would like to be able to 
increase the throughput through there. The airfields in Bagram, 
Kandahar and Bastian are the three major places that we will be 
going into, and we have increased our throughput into those all 
the way from an extra--increasing by 50 percent all the way up 
to increasing by four times.
    That is what we have done, again, in conjunction with the 
folks in theater to make sure that we have that option. We 
haven't had to use it, but I would say that we want to make 
sure that if we do need it, we have it there for General 
Petraeus, so that nothing will stop this.
    So that is kind of where we are.
    Mr. Wittman. One other question. How are our relationships 
with the Pakistani groups that are working with us to do the 
transport?
    I know at some time, there was discussion about how that 
dynamic existed between us, as contractors, and them, as 
providers.
    General McNabb. Absolutely. That is one that is probably 
Pakistan--we do normal commercial carriers that will go through 
there. A lot of discussion about how the Pakistanis can secure 
their routes.
    A lot of that is done as the contractors work with the 
different trucking companies that they do. They have different 
ways of doing that.
    In fact, that is exactly what we are going to do in the 
north, as well. It is going to be completely commercial. It is 
their relationships they already do and it is the movement of 
normal commercial cargo.
    Lots of discussion that they like to hide in the open, 
meaning that you don't want to have this designated that people 
would know that it is a shipment by us, and that seems to work 
very well, because, obviously, it is part of the normal 
commerce that goes through there and it brings capital to that 
region.
    We keep working with them to make sure that we have 
different ways of watching this. One thing that we do have 
almost completely on the Pak LOC is satellite trackers so we 
can see if something has slowed down, maybe pilferage, maybe 
attacked, and we can basically know that very quickly. So if we 
have got to supplement, we can do that.
    It also allows us, quite frankly, when you have a major 
disruption, let's say, a bridge, it allows you to reprioritize 
the flow en route and say, ``Okay, now, the unit equipment that 
was in the back that is en route, it now needs to go to the 
front.''
    We are doing that. That is the folks, to be honest with 
you, the folks in CENTCOM and our surface deployment and 
distribution folks, and they make magic happen and I am still 
going, ``Man, it is amazing you can do that,'' but that is what 
they are doing and that is why you are not hearing the--when 
you hear a bridge go down, we are working through coming 
different ways.
    So that I want everybody to know we will get the stuff 
through. We have other options. Don't ever think that we 
totally depend on you and that actually helps the whole system.
    Mr. Wittman. Thank you, Mr. Chairman. I yield the balance 
of my time.
    Mr. Taylor. The chair thanks the gentleman.
    The chair now recognizes the gentleman from Hawaii, Mr. 
Abercrombie.
    Mr. Abercrombie. General McNabb, has the issue between the 
Army and your command been resolved with regard to the C-130 
and the man-ground vehicle or the future combat system?
    General McNabb. Chairman, I think that they have decided 
that the future combat system, we would put that on a C-17. I 
think they have come to us and said, ``Yes, given the size of 
it, we will need to be dependent on the C-17 to move that.''
    Is that the question you were asking about?
    Mr. Abercrombie. Yes.
    General McNabb. Yes, sir.
    Mr. Abercrombie. That is if it moves forward.
    What about the utilization rate then of the C-17? You 
weren't able to anticipate that it is much higher.
    Do you need more replacements, what? What is the answer 
there?
    General McNabb. Chairman, you all have been--if I go back 2 
years, the 10 airplanes that you added took us from 180 to 190. 
That was really because of the wear and tear on the fleet, as 
you have said, basically, the flying hours that we have used 
up.
    But a lot of it is the type of flying hours that we are 
doing in theater. You all have been great about making sure 
that our fleet-wide--we are staying about even with the wear 
and tear on that fleet.
    The additional 15 airplanes, what it will allow us to do is 
take the newer airplanes, put them into places where we are 
going to do a higher utilization rate and be able to transfer 
some of the older airplanes and fly less hours on them.
    Mr. Abercrombie. Is there discussion of having more in the 
upcoming budget?
    General McNabb. Chairman, I know that at the highest levels 
in the Pentagon, that is one of the issues that we know we need 
to come back to you, and I know that they are discussing that.
    Mr. Abercrombie. Part of your testimony--sorry to keep 
rolling, but we have to go back and vote again.
    Part of your testimony, on page 3, ``U.S. Africa Command 
grows and expands its mission,'' one of the scariest sentences 
that I have seen, I mean this, one of the scariest sentences 
that I have seen in any testimony, ``as the U.S. Africa Command 
grows and expands its mission.''
    What is its mission, as you understand it?
    General McNabb. Well, obviously, I would defer to General 
Ward on that, but what I would say is that I know that given 
what that continent looks like, the kinds of things that he is 
talking about and the kinds of infrastructure they have, I know 
that he will be dependent on what TRANSCOM can bring him to 
whatever he is asked to do.
    Mr. Abercrombie. You say you are going to leverage your 
resources and expertise to support this new command. You must 
have some idea, then. What is their intention? What have you 
been told the Africa Command is supposed to be doing in Africa?
    General McNabb. I think it is partnering with the other 
countries. It is disaster assistance. It is the kinds of things 
that, as you look at U.S. Africa Command (AFRICOM) and you look 
at the Africa continent, it is the kinds of things that we did 
in Rwanda.
    It is kind of the things that we have done on----
    Mr. Abercrombie. Are you preparing?
    General McNabb [continuing]. Evacuation operations.
    Mr. Abercrombie. Are you now engaged in scenarios and 
preparing budgets and materiel and personnel for these 
scenarios?
    General McNabb. Chairman, one thing that they are doing, 
they do a number of scenarios that we used to take a look at 
what kind of force we need. That is done by the Office of the 
Secretary of Defense (OSD). They set different criteria.
    Mr. Abercrombie. Were you brought into it?
    General McNabb. Yes.
    Mr. Abercrombie. Are you currently engaged in gaming 
scenarios with regard to the United States, through its Africa 
Command, going into Africa?
    General McNabb. I would say that we have an illustrative 
scenario that would--like Africa and other places in the world 
which we know that we may be asked to do, and, yes, we do game 
those kinds of scenarios.
    Mr. Abercrombie. The Nigerian delta?
    General McNabb. Chairman, I think I would rather talk about 
that on a closed session.
    Mr. Abercrombie. I think we ought to have a closed session. 
I think we are, once again, in a situation where we are getting 
into--this goes way beyond mission creep.
    We have got an African Command. Nobody knows anything about 
it. We haven't the slightest clue as to what is involved in 
commitments that we may or may not find ourselves in and with 
whom.
    And so far as I know, there is nothing coming forward in 
terms of budget from you--budget implications. Don't you think 
that that is something that this committee ought to have a very 
clear handle on in the upcoming 2010 fiscal year?
    General McNabb. Chairman, I believe this committee 
absolutely should be aware of those kinds of discussions, 
absolutely.
    Mr. Abercrombie. If you had to summarize what you have been 
told to this point as to what the mission of the African 
Command is, could you summarize that for me?
    General McNabb. Chairman, my----
    Mr. Abercrombie. In terms of what TRANSCOM is expected to 
do.
    General McNabb. I think given the distances and the kinds 
of scenarios where we have had to do courses of action in 
Africa, those are the kinds of things that I would expect that 
General Ward would come to me and ask me, ``I need your help to 
do these things'' and to be ready to do this if called upon.
    When it was under the U.S. European Command (EUCOM), when 
Africa responsibilities sat under EUCOM, it was the same. In 
other words, EUCOM had responsibilities to Africa and they made 
sure that we were ready to support them, if called upon, and 
that is kind of where we have been.
    Mr. Abercrombie. And it is astounding that we are having 
this conversation. Africa is a continent. So we now have a 
command--we are now taking an imperial power orientation toward 
the entire continent of Africa.
    General McNabb. Chairman, I certainly don't believe that to 
be true.
    Mr. Abercrombie. So you have limited scenarios.
    General McNabb. Chairman, when I think about what you--this 
country may ask TRANSCOM to do, it may be anywhere in the 
world. That could include Africa, that could include South 
America.
    We do humanitarian assistance and disaster relief to all 
parts of the globe. What I try to do is make sure that wherever 
you ask us to go, we have the flexibility to deliver to the 
combatant commander.
    Mr. Abercrombie. I am concerned. I am concerned, General, 
that we won't be asking you to do it, that we are going to find 
ourselves involved in something again or multiple situations in 
Africa that are an extension of foreign policy that may not 
have been vetted at all in the United States Congress.
    But for purposes of the committee, I think perhaps, then, 
Mr. Chairman, we might need to have--even at full committee 
level and I think we need to bring it to Chairman Skelton's 
attention that we have got to have a thorough vetting of what 
is expected of General McNabb and his unified command with 
respect to the continent of Africa.
    Thank you, General.
    General McNabb. Thank you, sir.
    Mr. Taylor. General, again, I, on behalf of the committee, 
want to thank you for what I consider to be a magnificent job 
the men and women in your command do resupplying our troops in 
Afghanistan and Iraq, extremely dangerous places for all 
involved, and, to the absolute best of my knowledge, you all 
have done a magnificent job.
    We have asked some questions showing our concerns about 
what might happen in Pakistan and I think it is smart for us to 
be asking these questions upfront rather than get hit 
blindsided should the Pakistani government, either by omission 
or commission, decide that they are not going to let us use 
that as a route to resupply our troops.
    The last thing I would ask you is--and I know that the 
President only made these remarks last night, with the 
President's announced desire to have American combat troops out 
of Iraq by August of 2010.
    To what extent have you been involved in the discussions as 
to what stays in Iraq, what comes back, because, obviously, it 
is going to have enormous budgetary implications for the 
Defense Department if an extraordinary amount of equipment is 
left behind?
    And I only raise this question because I remember the 
enormous amount of material that was left behind in Panama and 
I thought that was terribly wasteful. For the failure to budget 
the necessary resources to bring things home, we left hundreds 
of millions of dollars of things that the American taxpayer 
paid for, that had to be replaced someplace else.
    And I would certainly hope that you will keep the committee 
informed of what the plan is, what is going to be left behind, 
what do we bring with us, and I would certainly hope that 
nothing is left behind that is of value because of the failure 
to appropriate the necessary funds to get it home.
    General McNabb. Chairman, I would say that in my 
discussions, for instance, with General Lovelace, my 
discussions with General Odierno, my discussions with Ann 
Dunwoody, for instance, the commander of the Army Materiel 
Command, they are focused on that to make sure that we have 
thought through that and made sure that we have done that as 
smartly as possible.
    I have been given gross numbers that said this is about the 
amount of stuff that we need to move. That is kind of what I 
need in scheduling ships and aircraft.
    But I do know that they are taking that seriously along the 
lines of exactly what you say, to make sure that we are doing 
this as smart as possible.
    Those discussions, I could tell you, I know that they are 
having. I know that we are working through what exactly we 
would bring back, what we may end up leaving there.
    But I would just say that that is what I have heard so far. 
I do know that we have plenty of lift to be able to handle any 
requirements they have. So I know that I am not the long pole 
in the tent and I just try to make sure that I never am.
    So that is kind of where we go.
    Mr. Taylor. So what is your target date for that plan to be 
in place?
    General McNabb. On this one, given that the President 
talked about that last night, they are working those final 
options now. I would expect that--I mean, we have been--we, the 
Department of Defense (DOD), have collectively been working 
that to say, hey, depending on what orders he gives, we want to 
make sure that we can respond as quickly as possible.
    So I know they are into that final phase now.
    Mr. Taylor. General, I want to be fair with you, but I also 
think it is important for Congress to have some idea of what 
you intend to leave behind, some idea of what you intend to 
leave behind, some idea of what you intend to either bring back 
to the continental United States or transport to Afghanistan.
    So what would be a reasonable amount of time to give you in 
order for you to get back to us as to what that plan is?
    General McNabb. Let me take that for action and I will get 
with CENTCOM and be able to come back, and with OSD and the 
department, and let them provide that answer back to you, but 
say that we have got to do that in a quick manner.
    Mr. Taylor. Is 120 days a fair amount of time?
    General McNabb. We can start with 120 and then we can--but 
it really isn't part of what I would be in the middle of.
    Mr. Taylor. Because that was a real-life scenario that 
ended up, I believe, on ``60 Minutes'' or ``20/20,'' for the 
lack of spending $3,000 or $4,000 to transport something, we 
left behind a $0.5 million piece of equipment here, generator 
there.
    All of those things could certainly have been used if not 
by our Federal Government, by the local and state governments, 
who would have welcomed those things, and I just don't want to 
see that happen again.
    General McNabb. Chairman Taylor, I couldn't agree with you 
more. I mean, that is exactly right. It is exactly the way we 
should do it.
    Mr. Taylor. Again, thank you for the great job that the men 
and women in your command do.
    We are adjourned.
    [Whereupon, at 12:10 p.m., the subcommittees were 
adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 25, 2009

      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2009

=======================================================================
      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
